AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 Certification and Accreditation of the
 Department's National Security
 Information Systems




 DOE/IG-0800                                    August 2008
                                Department of Energy
                                     Washington, DC 20585
                                     August 1 1 ,      2008



MEMORANDUM FOR

FROM:
                          Inspector General

SIIHJECT:                 INFORMATION: Audit Report on "Certification and
                          Accreditation of the Ilepartment's National Security Information
                          Systems"

BACKGROUND

The Department of Energy and its facility contractors maintain numerous national
security information systems that process and store classified data needed to accomplish
national security goals. Recognizing and addressing the risks associated with operating
such systems. the Department has adopted a certification and accreditation (C&A)
process designed to ensure that these systems are secure prior to beginning operation and
that they remain so throughout their lifecycle. The C&A process includes formal steps to
recognize and address risks, determine whether system security controls are in place and
operating ef'fectively, and ensure that changes to the system are adequately tested and
approved.

Prior Office of Inspector General reviews have identified concerns with the Department's
C&A process. For example, our report on C,'erf~ficufion   rind Accredilution c?f'Unclu.s.s~fjed
InfOrm~llion,5'j:stem.s (DOEJIG-0752, January 2007) found that many of the Department's
unclassified systems were not properly certified and accredited for operation due to
inadequate policies and monitoring. In addition, our Special Inquiry on Selected C,'ontrols
                 Infi)rmution u! the Los Alumos Nutioncll Luhoru!ory (OAS-SR-07-0 1 .
over C1lu.s,s~fied
November 2006) disclosed that system security plans were incomplete and separation of
duties over systems processing classified information had not been implemented.
Because of the importance of protecting classified information, we initiated this audit at
six of the Department's major facilities to determine whether national security
information systems had been appropriately certified and accredited.



The Department had taken steps to improve security over its national security information
systems. Yet. we found that additional actions as part of the C&A process are needed to
reduce the risk of compromise to these systems. In particular, we found that:

         At five of the six sites included in our audit, risks such as a lack of separation of
         duties and the presence of unclassified and classified systems operating in the
         same environment, had not been addressed in system security plans;
     a   In many instances, security plans, or changes to systems, were not appropriately
         approved by Department officials. Further, in certain cases, plans did not
         accurately reflect the actual environment in which the system operated; and,
     a   At five of the six sites reviewed, contingency plans had not been developed for
         national security infonnation systems - a critical activity required to mitigate the
         risk of service disruption.
Several problems contributed to the weaknesses identified during our review. In
particular, the Department had not yet fully developed and implemented adequate cyber
security policies to ensure that national security infonnation systems were adequately
protected. In addition, Federal and contractor officials did not always utilize effective
mechanisms to monitor performance of security controls. Without inlprovements, the
Department lacks assurance that its classified data and systems are secure from numerous
threats and vulnerabilities. The issues identified during our review were similar to those
that contributed to an environment in which the theft of classified information at the Los
Alamos National Laboratory occurred in 2006. In our judgment, the findings in the
attached report suggests that the Department could be at risk for similar diversions.
We noted that the Department had initiated a wide range of actions to address cyber
security weaknesses. For example, in response to our Special Inquiry on Selected
C'ontrols over CTlus.sified67fi,rmution at the Los Alarnos Nation~llLuhorcrtory, the Deputy
Secretary required each site to conduct a thorough examination of the adequacy of its
practices and procedures to ensure that classified information was protected. In addition,
the Department updated its Nutionul S"krity Sy.stern Munuul in March 2007 to further
enhance its cyber protective requirements. While these were positive steps, they have
not, as evidenced by the findings described in our report, adequately resolved weaknesses
in controls over national security information systems. In that light, we made several
recommendations designed to further enhance security over the Department's national
security information systems.
Due to security considerations, specific information regarding the locations and systems
reviewed has been omitted from this report and supplied to Department officials directly.
MANAGEMENT REACTION
Management concurred with two of the report's four recomnlendations and pledged to
take needed corrective actions. In response to management's comments and additional
technical data provided by program officials. we clarified the intent of the two
recommendations with which management disagreed. In separate comments, the NNSA
agreed with the information contained in the report and concurred with each of the NNSA
specific recommendations. Management's comments are included in Appendix 3.
Attachment

cc: Acting Deputy Secretary
    Under Secretary of Energy
    lJnder Secretary for Science
    Administrator, National Nuclear Security Administration
    Chief of Staff
REPORT ON CERTIFICATION AND ACCREDITATION OF THE
DEPARTMENT'S NATIONAL SECURITY INFORMATION
SYSTEMS


TABLE OF
CONTENTS


    Protection of National Security Information Systems

    Details of Finding ..........................................................................................................1

    Recommendations .........................................................................................................7

    Comments .....................................................................................................................8


    Appendices

    1. Objective, Scope, and Methodology........................................................................9

    2. Prior Reports ..........................................................................................................11

    3. Management Comments ........................................................................................12
Protection of National Security Information Systems

Ensuring Security     Our audit focused on the certification and accreditation
Over Classified       (C&A) of national security information systems and
Information Systems   included the review of 65 systems at six of the Department
                      of Energy's (Department) major sites. These systems were
                      managed by various elements of the Department, including
                      the National Nuclear Security Administration (NNSA), the
                      Office of Environmental Management (EM) and the Office
                      of Science (Science).

                      Our review of these systems disclosed that many of them
                      were not appropriately certified and accredited for
                      operation. In particular, organizations did not always
                      identify and/or address risks to systems to ensure that
                      mitigating controls were in place. In a number of instances,
                      system security plans reviewed were not appropriately
                      accredited, changes were not approved, or the plans did not
                      accurately describe the respective systems. In addition,
                      sites had not developed and implemented contingency
                      plans for national security information systems.
                                             System Risks
                      Responsible officials had not ensured that system-specific
                      risks, such as those that could allow unauthorized access or
                      release of classified information, were addressed in system
                      security plans. In particular:
                         •   Although prohibited by Department policies,
                             Information System Security Officers – those
                             individuals responsible for ensuring security of an
                             information system – were inappropriately granted
                             system administrator access for 31 of the 56
                             systems reviewed at 5 sites. Officials at two NNSA
                             sites informed us that this situation also existed for
                             many of their systems not selected for our review.
                             As disclosed in our Special Inquiry on Selected
                             Controls over Classified Information at the Los
                             Alamos National Laboratory, inadequate separation
                             of duties can, as a practical matter, allow
                             individuals to supervise and approve their own
                             work. Despite this risk, the lack of separation of
                             duties and needed mitigating controls were not
                             addressed in system security plans.
                         •   While we observed the existence of unclassified and
                             national security information systems operating in
                             the same environment at certain locations, risks

________________________________________________________________
Page 1                                            Details of Finding
                             associated with mixed-media environments were
                             not always documented in the system security plans.
                             This risk – exacerbated by the lack of segregation of
                             duties – could permit the transfer of classified
                             information to unclassified systems. Absent
                             documentation of this risk, the Federal official
                             responsible for approving operation of the systems
                             may not have been aware of all potential
                             vulnerabilities.

                         •   Risks related to weak methods for implementing
                             passwords on national security information systems
                             at one NNSA site were not documented. Even
                             though the Department directs that computer-
                             generated passwords be used on national security
                             information systems, users were permitted to
                             manually change passwords outside of automated
                             password controls without checks being performed
                             to ensure the strength of the password or
                             compliance with requirements. Officials at the site
                             did not document this weakness in the security
                             plans because they did not believe it to be a security
                             risk even though the practice was specifically
                             prohibited by the Department. Guidance issued by
                             the National Institute of Standards and Technology
                             (NIST) also stresses that user-created passwords are
                             more vulnerable to compromise.

                                           Security Planning

                      Designated Approving Authorities (DAA) did not always
                      validate and approve system plans or related modifications
                      to plans even though significant and unique security risks
                      existed. In particular, approvals of system security plans
                      were at too high a level and did not consider all variations
                      of system risks. At one NNSA site, the DAA approved an
                      overarching master security plan and one related sub-plan.
                      However, he did not specifically approve the remaining 22
                      sub-plans even though significant differences existed
                      between them. Rather than provide explicit approval, the
                      DAA relied on contractor officials to certify plans for
                      systems ranging from supercomputers and classified
                      networks to individual computers used to move files
                      between classified and unclassified systems. Although
                      Department directives permit the use of this master plan
                      approach, the operating environments of the systems should
________________________________________________________________
Page 2                                            Details of Finding
                      be similar. In this instance, the DAA could not ensure that
                      all risks to the systems were either addressed through
                      mitigating controls or accepted as a residual risk.

                      System security plans also did not always accurately reflect
                      system accreditation boundaries in that they did not contain
                      accurate inventories of hardware associated with the
                      system. For instance, a system observed at one NNSA site
                      contained ten servers even though none were explicitly
                      approved for operation in the security plan. In addition,
                      security plans at other NNSA, EM, and Science sites did
                      not always contain accurate inventories, in that they
                      excluded items such as Universal Serial Bus (USB)
                      scanners, a camera, and network and desktop printers. In
                      most cases, the DAA did not approve these changes to
                      information systems even though the addition of certain of
                      those devices may have created additional security risks.
                      These issues are similar to weaknesses previously reported
                      in our Special Inquiry on Selected Controls over Classified
                      Information at the Los Alamos National Laboratory, which
                      disclosed that omitting equipment from plans prevented
                      security officials from evaluating the impact of these
                      changes and may have contributed to an environment in
                      which the theft of classified information occurred. As
                      noted by NIST, accurate inventories are a key initial step in
                      determining what system elements are exposed to security
                      risks.

                                         Contingency Planning

                      In spite of Federal and Departmental requirements to
                      ensure that information systems and data can be recovered
                      in the event of a disaster, five sites had not appropriately
                      developed and implemented contingency plans for their
                      national security information systems. Although
                      requirements issued jointly by the NNSA and the
                      Department's Chief Information Officer (CIO) mandated
                      that at least 80 percent of information systems have a
                      documented and tested contingency plan in place by July
                      2005, we found that sites had developed such plans for only
                      19 of 65 (29%) systems reviewed. Sites had not developed
                      contingency plans for systems such as classified computing
                      networks utilized by hundreds of users, or for various
                      research systems supporting the Department's national
                      security mission. In addition, many of the systems without
                      contingency plans did not require data backups or the
________________________________________________________________
Page 3                                            Details of Finding
                      backups were maintained in the same building as the
                      original data – sometimes even in the same room. Some
                      sites also had either not fully identified mission-critical
                      systems or had not prioritized their recovery in the event of
                      a disaster. As stressed by NIST, the ability to successfully
                      implement contingency planning is essential to mitigating
                      the risk of system and service unavailability. Notably, one
                      NNSA laboratory had established contingency plans for
                      each of the systems that had been included in our review.

Security Policy and   We identified several problems that contributed,
Program Monitoring    in part, to the weaknesses in the Department's certification
                      and accreditation (C&A) process. In particular, policies
                      and guidance did not always clearly define C&A
                      requirements. However, even when policies were
                      developed, facilities often had not implemented the
                      required controls. In addition, performance monitoring by
                      Headquarters and site officials was not adequate to ensure
                      that requirements were met. Further, we found that similar
                      problems disclosed in reports authored by the Department's
                      Office of Health, Safety and Security had not been totally
                      resolved.

                                         Cyber Security Policy

                      Headquarters programs and sites reviewed had not fully
                      developed and implemented cyber security policies to
                      ensure that national security information systems were
                      adequately protected. In particular, policies and guidance
                      issued by the Department did not always clearly define
                      C&A requirements. For instance, our analysis showed that
                      significant security changes were inappropriately made to
                      systems due to the lack of guidance or direction as to what
                      changes required approval by the DAA. Incomplete
                      guidance for contingency planning allowed many sites to
                      limit their disaster recovery efforts for national security
                      information systems. Although the Department updated its
                      National Security System Manual, DOE Manual 205.1-4,
                      and required that additional controls be incorporated into
                      Program Cyber Security Plans (PCSP), officials from
                      Headquarters and sites commented that the new mandates
                      were vague and could not be effectively implemented.

                      PCSPs were not always updated to reflect the Department's
                      new requirements for protecting national security
                      information systems and/or had not been implemented by
________________________________________________________________
Page 4                                            Details of Finding
                                    field sites. Specifically, although the Department required
                                    implementation of its updated National Security System
                                    Manual by July 2007, the NNSA still had not updated its
                                    PCSP to include additional requirements. As a result of
                                    this delay, NNSA sites that were required to follow the
                                    PCSP continued to implement outdated requirements for
                                    protecting national security information systems. For
                                    example, 18 systems at one NNSA site were re-accredited
                                    since the new manual was issued. However, none of the
                                    security plans required updated controls such as
                                    segregation of duties and two-factor authentication1 for
                                    system access. Officials at this site commented that
                                    updated controls would not be implemented until re-
                                    accreditation of a system, which would not occur for up to
                                    three years. Similarly, none of the 10 networks, and nearly
                                    300 workstations accredited at another NNSA site since the
                                    new manual was issued, were required to comply with the
                                    new mandates. Subsequent to our field site reviews, the
                                    NNSA issued an updated PCSP to incorporate new
                                    requirements for securing national security information
                                    systems. If fully implemented, this plan should help
                                    address a number of weaknesses identified in our report.

                                    Even when PCSPs were developed by Headquarters
                                    programs, sites reviewed had not implemented the controls
                                    required by the plans. Specifically, none of the systems
                                    accredited at three Science, EM, and Office of Nuclear
                                    Energy sites after the issuance of updated PCSPs were
                                    completed in accordance with the new requirements. In
                                    one case, officials at a Science site acknowledged that the
                                    lack of separation of duties nullified a number of other
                                    security controls, including the ability to protect USB ports
                                    on classified systems. To its credit, this site developed a
                                    gap analysis describing weaknesses in controls over
                                    national security information systems and initiated the
                                    process to correct them. By failing to comply with their
                                    respective PCSPs, sites had not always implemented
                                    additional controls designed to enhance security over
                                    information systems.

                                    Sites reviewed also had not updated local cyber security
                                    policies or developed transition plans to ensure that new

1
  Two-factor authentication requires two independent ways to establish identity and privileges, such as both
a physical device and a password, while traditional password authentication only requires knowledge of a
password to gain access to a system.
________________________________________________________________
Page 5                                            Details of Finding
                      Department requirements were met. Specifically, several
                      sites reviewed had not developed Cyber Security Program
                      Plans (CSPP) – site-level policies and procedures designed
                      to ensure effective security controls are implemented – that
                      included controls in the new National Security System
                      Manual. At two NNSA sites, the CSPPs were updated
                      more than six months after the issuance of the new manual,
                      but still did not include new requirements even though they
                      were required by the site contracts. In addition, five sites
                      had either not determined what new requirements should be
                      implemented or had not established a transition plan to
                      meet those requirements.

                                       Performance Monitoring
                      Headquarters and field site officials did not always
                      implement effective mechanisms to ensure adequate C&A
                      of national security information systems. Although NNSA
                      Headquarters officials conducted an assessment of
                      classified cyber security at two of the sites reviewed, the
                      sites were not informed of the results and therefore could
                      not develop corrective action plans to address identified
                      weaknesses. Timely and effective evaluations may have
                      identified many of the weaknesses noted during our review
                      and permitted the initiation of corrective actions.
                      We also noted that assessments conducted by site-level
                      officials were not always effective or were not performed.
                      For instance, although one NNSA site office completed an
                      evaluation of its laboratory's cyber security program in
                      Fiscal Year 2007, it did not identify or track corrective
                      actions for weaknesses such as inadequate separation of
                      duties or incomplete inventories of equipment in system
                      security plans. In addition, the DAA at another site office
                      commented that he was unable to conduct effective surveys
                      in the past year due to a lack of resources. We also found
                      weaknesses in the contractors' self-assessment processes at
                      four sites, including untimely assessments and inadequate
                      separation between those responsible for testing and
                      implementing controls.
                      Finally, even though sites and Headquarters officials
                      became aware of similar weaknesses through evaluations
                      conducted by the Department's Office of Health, Safety and
                      Security, they had not always taken appropriate action to
                      remediate such vulnerabilities.

________________________________________________________________
Page 6                                            Details of Finding
Information Security   Without improvements, the Department lacks assurance
and Assurance          that its national security information systems are secure
                       from both internal and external threats. As noted in our
                       Special Inquiry on Selected Controls over Classified
                       Information at the Los Alamos National Laboratory, the
                       lack of separation of duties, if exploited, can result in the
                       unauthorized exfiltration of classified information to the
                       detriment of national security. Similarly, these conditions
                       could permit the introduction of unauthorized peripheral
                       devices. As a demonstration of the harm that can be caused
                       by unapproved devices, we specifically identified an
                       unapproved network device during our previous review at
                       the Los Alamos National Laboratory that may have
                       contributed to a significant theft of classified information.
                       In addition, the failure to develop and test contingency
                       plans limits the Department's assurance that it will be able
                       to restore critical operations in a timely manner in the event
                       of a disaster.
RECOMMENDATIONS        To address the issues identified in this report and improve
                       controls over national security information systems, we
                       recommend that the Department and NNSA CIOs, in
                       coordination with the Under Secretary of Energy and the
                       Under Secretary for Science, as appropriate:
                            1. Ensure that Department policies are updated to
                               reflect current requirements for securing national
                               security information systems.
                       We further recommend that the Administrator, NNSA, the
                       Under Secretary of Energy, and the Under Secretary for
                       Science:
                            2. Ensure that current PCSPs are utilized for all
                               future system C&As; and,
                            3. Prioritize and immediately implement high-risk
                               security controls, such as segregation of duties
                               and two-factor authentication, to protect the
                               Department's classified information and systems.
                       We also recommend that the Administrator, NNSA:
                            4. Enhance performance monitoring and oversight
                               activities at Headquarters and field sites to ensure
                               effective C&A of national security information
                               systems.



________________________________________________________________
Page 7                              Recommendations and Comments
MANAGEMENT           Management concurred with recommendations one and
REACTION             three. Specifically, management indicated that steps will
                     be taken to update existing security policies and to
                     implement high-risk controls over national security
                     information systems. Based on management's comments
                     and additional technical information provided by program
                     officials, we modified recommendation two in our draft
                     report to recognize that each of the program's PCSPs had
                     now been updated to reflect requirements in the
                     Department's new National Security System Manual. The
                     updated PCSPs, as the modified recommendation indicates,
                     should be used for weaknesses in the NNSA's performance
                     monitoring and oversight process. Recommendation four
                     was also modified to focus solely on weaknesses in
                     NNSA's performance monitoring and oversight process. In
                     separate comments, the NNSA agreed with the information
                     contained in the report and concurred with each of the
                     specific recommendations. The NNSA disclosed that it
                     recently updated its cyber security policies and is working
                     to implement the recommendations contained in the report.

AUDITOR              Management's comments are generally responsive to our
COMMENTS             recommendations. We continue to recommend that the
                     Department's programs utilize their updated PCSPs when
                     conducting future C&A activities for national security
                     information systems because weaknesses in this area
                     directly contributed to problems with implementing
                     protective controls. Additional action is also needed to
                     enhance the NNSA's performance monitoring process over
                     its national security information systems. Management's
                     comments are included in their entirety in Appendix 3.




________________________________________________________________
Page 8                                                 Comments
Appendix 1

OBJECTIVE             The objective of this audit was to determine whether the
                      Department of Energy's (Department) national security
                      information systems have been appropriately certified and
                      accredited for operation.

SCOPE                 The audit was performed between October 2007 and May
                      2008 at Department Headquarters in Washington, DC, and
                      Germantown, Maryland, and five field sites – three
                      managed by the National Nuclear Security Administration
                      (NNSA), one managed by the Office of Environmental
                      Management, and one managed by the Office of Science
                      (Science). We also obtained information from an Office of
                      Nuclear Energy site not visited.

METHODOLOGY           To accomplish our objective, we:

                         •   Reviewed Federal regulations and Departmental
                             directives and guidance pertaining to certification
                             and accreditation (C&A) of national security
                             information systems;

                         •   Reviewed prior reports issued by the Office of
                             Inspector General and the Department's Office of
                             Health, Safety and Security;

                         •   Reviewed program and site level policies relevant
                             to C&A of national security information systems;

                         •   Held discussions with program officials from
                             Department Headquarters and sites reviewed,
                             including representatives from the Office of Chief
                             Information Officer (OCIO), Science, and the
                             Under Secretary of Energy, as well as the NNSA;
                             and,

                         •   Judgmentally selected a sample of 65 system
                             security plans for review to determine whether
                             relevant C&A requirements had been implemented.

                      The audit was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objective. Accordingly, we




________________________________________________________________
Page 9                             Objective, Scope, and Methodology
Appendix 1 (continued)

                      assessed internal controls regarding the C&A of national
                      security information systems across the Department.
                      Because our review was limited, it would not necessarily
                      have disclosed all internal control deficiencies that may
                      have existed at the time of our audit. We also assessed
                      performance measures in accordance with the Government
                      Performance and Results Act of 1993 relevant to C&A of
                      national security information systems. We found that two
                      of the six field sites reviewed had established limited
                      measures specific to this area. We did not rely on
                      computer-processed data to satisfy our audit objective.
                      Officials from the Office of the Chief Information Officer
                      and the NNSA waived an exit conference.




________________________________________________________________
Page 10                            Objective, Scope, and Methodology
Appendix 2

                                     APPENDIX 2

             PRIOR OFFICE OF INSPECTOR GENERAL REPORTS


Office of Inspector General Reports

   •   Special Report on Management Challenges at the Department of Energy
       (DOE/IG-0782, December 2007). The Office of Inspector General (OIG)
       identified seven significant management challenges facing the Department of
       Energy (Department), including cyber security. The report noted that although
       the Department had in place an aggressive effort to address existing weaknesses,
       we continued to identify deficiencies, including problems relevant to the
       Department's certification and accreditation of unclassified information systems.

   •   Audit Report on Certification and Accreditation of Unclassified Information
       Systems (DOE/IG-0752, January 2007). Many systems were not properly
       certified and accredited prior to becoming operational. For example, 9 of 14 sites
       reviewed had not always properly categorized security levels or risk of damage to
       systems and information contained within, or had not adequately tested and
       evaluated security controls. In many instances, senior agency officials accredited
       systems even though required documentation was inadequate or incomplete, such
       as incomplete inventories of software and hardware included within defined
       accreditation boundaries. In addition, the Office of the Chief Information Officer
       and other program organizations did not adequately review completed activities
       for quality or compliance with requirements.

   •   Special Inquiry on Selected Controls over Classified Information at the Los
       Alamos National Laboratory (OAS-SR-07-01, November 2006). We found that
       the security framework at the Laboratory was seriously flawed. For instance,
       security policy in a number of key areas was non-existent, applied inconsistently,
       or not followed. In addition, monitoring by both Laboratory and Federal officials
       was inadequate; critical security functions were not adequately segregated; and
       physical verification of the accuracy of security plans by Federal and Laboratory
       officials was not performed.

   •   Evaluation Report on The Department's Unclassified Cyber Security Program -
       2007 (DOE/IG-0776, September 2007). The evaluation identified continued
       deficiencies in the Department's cyber security program that exposed its critical
       systems to an increased risk of compromise. In particular, weaknesses existed
       relevant to system certification and accreditation, contingency planning, access
       controls, configuration management, and change controls. Problems occurred, at
       least in part, because Department organizations had not always ensured that
       Department policies, and cyber security controls were adequately implemented
       and conformed to Federal requirements.



________________________________________________________________
Page 11                                              Prior Reports
Appendix 3




________________________________________________________________
Page 12                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 13                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 14                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 15                                     Management Comments
                                                             IG Report No. DOE/IG-0800

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
